<html>
<title> - MEETING TO DISCUSS THE GOVERNMENT ACCOUNTABILITY OFFICE WORK PLAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   MEETING TO DISCUSS THE GOVERNMENT ACCOUNTABILITY OFFICE WORK PLAN 

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION

    TASK FORCE FOR THE CONTESTED ELECTION IN THE 13TH CONGRESSIONAL 
                          DISTRICT OF FLORIDA

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, JUNE 14, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                             -------

                     U.S. GOVERNMENT PRINTING OFFICE

37-292 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             VERNON J. EHLERS, Michigan,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director
                                 ------                                

              Task Force for the Contested Election in the
                 13th Congressional District of Florida

                  CHARLES A. GONZALEZ, Texas, Chairman
ZOE LOFGREN, California              KEVIN McCARTHY, California
















   MEETING TO DISCUSS THE GOVERNMENT ACCOUNTABILITY OFFICE WORK PLAN

                              ----------                              


                        THURSDAY, JUNE 14, 2007

                  House of Representatives,
                              Elections Task Force,
                         Committee on House Administration,
                                                    Washington, DC.
    The task force met, pursuant to call, at 3 p.m., in Room 
1310, Longworth House Office Building, Hon. Charles A. Gonzalez 
[chairman of the task force] presiding.
    Present: Representatives Gonzalez, Lofgren and McCarthy.
    Also present: Representative Lungren.
    Staff Present: Liz Birnbaum, Staff Director; Charles 
Howell, Chief Counsel; Thomas Hicks, Election Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Janelle Hu, 
Election Counsel; Kristin McCowan, Chief Legislative Clerk; 
Daniel Favarulo, Staff Assistant; Gineen Beach, Minority 
Counsel; and Peter Sloan, Minority Professional Staff Member.
    Mr. Gonzalez. Welcome, one and all. I will call the Task 
Force meeting to order. Good afternoon. I am going to give some 
background into the purpose of the meeting today. I am going to 
ask the Members of the Task Force as well as Mr. Lungren if we 
can do this in the space of about 30 minutes. I think 
everybody's schedules would be well served.
    On June 7, 2007 there was a meeting conducted with GAO, and 
I am going to go over the Members that were present; obviously, 
Members of the Task Force, Congresswoman Lofgren, Congressman 
McCarthy, as well the Ranking Member Mr. Ehlers, and, of 
course, Mr. Lungren. Also present at that meeting, and I want 
to make sure that I get everything in order here, were 
representatives of GAO as follows: Keith Rhodes, Nabajyoti 
Barkakati, Gloria Jarmon, Jan Montgomery, Jeffrey Hamilton and 
Richard Hung. Also present were Majority and Minority staff 
members.
    At the meeting an engagement plan dated June 6, 2007, was 
presented and was discussed, the contents, of course, as well 
as a general timeframe, and at that point there was a 
discussion about a timeframe or at least somewhat of a target 
date. There was follow-up after that particular meeting asking 
for more specificity as it related to the timeframe or time 
line to accomplish what GAO had identified as what they thought 
would be required to answer certain questions that were posed 
by the Task Force and really describes the particular charge.
    On June 13 GAO submitted a modified engagement plan that 
had specific timeframes or timelines. It is my understanding 
that, of course, all this documentation has been made available 
and provided to the Minority side. Subsequent to receiving the 
last engagement plan that actually had more specificity as to 
the timeframe, there had been discussions regarding expediting 
that particular timeframe, which we will get into in a little 
greater detail in a minute.
    The purpose today is, of course, to consider adopting the 
GAO's engagement plan and other related matters. So with that 
introduction--that is my opening statement--and in the interest 
of time, I will then be recognizing other members of the Task 
Force. I will recognize the Democratic member, the Majority 
member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I will not use 5 
minutes. I first want to thank you for your leadership in 
chairing the task force. It is sort of a short-straw 
assignment, but I am glad that you are doing it. And hopefully 
we will get this analysis promptly, which I think is in 
everyone's interest, which you referenced.
    In looking at the work plan, and I was just alerting the 
GAO staff, I don't want to try and change the plan because I 
think it is their plan, and we need to support it. All I want 
to do is to make sure that the questions that are in 1, 2 and 3 
are in aid and necessary to question 4, which I think is the 
heart of the matter. So in looking at it, looking at 3-A, B and 
C, I mean, those are interesting issues. The question to them--
not today, but in the future I think we are going approve this 
plan--is do the answers to those questions help you answer 
number 4? If so, do them. But if they don't, I think we just 
want to cut to the chase and get this done.
    I am not making a motion to change anything. I am just 
expressing a point of view that I want whatever it is you need 
to do, please do, but make sure that it is on point to getting 
the answers promptly as possible. I don't know if there is a 
better way to say it, but I think you are nodding, and that 
point has been made.
    With that, I would just say that I concur in your idea that 
this meeting should take no more than 30 minutes, so I will 
stop talking and yield back the balance of my time, Mr. 
Chairman.
    Mr. Gonzalez. The Chair recognizes Mr. McCarthy.
    Mr. McCarthy. I thank the Chair. I appreciate you having a 
public meeting. I know we were able to meet privately with GAO 
last week. And I look forward to having a discussion about 
this, being able to move forward and get to the bottom. Thank 
you.
    Mr. Gonzalez. Mr. Lungren.
    Mr. Lungren. Thank you for allowing me to say something, 
Mr. Chairman. The only thing I would raise is what I raised at 
the private meeting before, which is in the question of 
expediting it, one of the thoughts I had was making sure they 
do whatever they need to do with the Florida examination that 
has already taken place. It seems to me that is extremely 
important, and maybe that would help us get there as quickly as 
possible. And as I look at it, I don't know if it is phased in 
such that that is the first part of their inquiry. That is just 
my suggestion. That might be the best way for them to proceed.
    Mr. Gonzalez. Anything further, Mr. Lungren?
    Mr. Lungren. No.
    Mr. Gonzalez. I think the most important thing--and I think 
I may have misstated the date of the second engagement plan; it 
would be June 12. And obviously it was discussed--it was 
delivered on June 12 and then discussed by some of the members 
and reviewed on the 13th, and here we are on the 14th.
    It is important to point out that I think the emphasis, at 
least that I felt, and I know in my discussions with 
Congresswoman Lofgren, really would be question 4 or job 
objective 4. And that was considering the tests that were 
conducted on the voting systems from Sarasota County after the 
general election, are additional tests needed to determine 
whether the voting systems contributed to the undervote, 
because that is obviously the gist of the notice of contest 
which is before us today in the allegations made by the 
contestant.
    It would appear that in order to make that determination, 
GAO will be making determinations as to what would be essential 
information to be able to arrive at something definitive to 
report to the Task Force. I don't have any real particular 
questions, only that, again, I am going to basically say what I 
think Ms. Lofgren was saying, to focus on the central question 
which comprises the core of the contested election and then 
determine what truly is absolutely essential.
    We recognize--first of all, I want to assure you we 
recognize the limitation on resources. And the other thing we 
recognize is there may be some unforeseen circumstances that 
may delay your abilities. But I will assure you that you will 
have the full cooperation of the task force to make sure that 
any person or entity that has any information that you are 
requesting will be responsive. I am hoping that it will be in a 
cooperative nature.
    One of the motions we will consider here this afternoon 
addresses the manner in which we are going to do that and how 
we are placing all of the parties and any entities on notice 
that we expect that kind of cooperation.
    Ms. Lofgren, do you have any remarks?
    Ms. Lofgren. I don't know if at this point we want to do 
motions to proceed.
    Mr. McCarthy. I just have a quick question for 
clarification, if I could. You mentioned--I just want to make 
sure I am on the same page--this June 12 memo, and then you 
said something about a June 13 meeting. Did I miss a meeting?
    Mr. Gonzalez. No. I am saying we have had discussions with 
staff and others among ourselves.
    Mr. McCarthy. With GAO?
    Mr. Gonzalez. With GAO. Staff has had discussions with GAO.
    Mr. McCarthy. I know in our meeting prior we talked about 
making sure this was a unified front that we move forward in. 
The only thing I requested, I remember you and I both agreeing 
to this, if GAO is having meetings after our meeting that we 
had, that we have a representative from the Republicans and the 
Democrats. And I know you and I agreed to that. So that leaves 
me somewhat a little concerned if there was something. I just 
want to be kept apprised as we move forward. And if we are 
working, I want to make sure we are working off this June 12 
one, because I have some clarifying language that I would like 
to bring up kind of at the beginning, and you tell me when it 
is appropriate and proper.
    Mr. Gonzalez. First of all, there have not been any formal 
meetings of the members with GAO. There has been a discussion 
with staff of which members were privy because we had posed a 
question about looking at time lines. Everyone's best interest 
is served the sooner we get an answer. That is truly my belief, 
and that is the contestants' and the contestees' and the House 
of Representatives--the sooner we get our job done. That is not 
to say there shouldn't be a sufficient amount of time for GAO 
to be able to establish what is the essential information that 
is required to arrive at.
    The only question that was posed was can we move the time 
line up. It wasn't actually into the content, modifications or 
anything, other than what can be done to meet a time line that 
would incorporate Congress' schedule and our recess in August. 
So that was the nature of it.
    Mr. McCarthy. Well, Mr. Chairman, just like when we 
discussed in our last one, we sat down and we had a lot of 
questions, GAO, with you in the room, and I was in the room, 
and the staff. And at the end of the meeting we asked did the 
staff have any questions; if a meeting takes place, which I 
appreciate this one being in public, that we have 
representatives from Republicans and Democrats there.
    We have gone to the GAO from the perspective of not making 
this political, and that only leaves me great concern that 
after the meeting took place last week prior to this meeting, 
after we get this on the 12th, that there is some meeting going 
on that questions were asked where others couldn't be involved.
    Ms. Lofgren. At least so far as I am aware, I didn't go to 
any meeting. There was a phone call placed to see--as you will 
see on the June 12 memo, there is on the fourth page a high-
level schedule, June 2007, July 2007, August and September. And 
the question was could we set--on a phone call, could we set a 
target that was more aggressive so that we could get 
information before the recess so that either we could decide 
this before the recess, or if the GAO felt additional work was 
needed to be done, and we don't know whether they will or not, 
that they could do that over the recess. That is the only--
there wasn't a meeting.
    Mr. McCarthy. I know, Ms. Lofgren, you had to leave to a 
hearing that you had to run. We tried to set up a framework at 
the end when we came back from the vote. And the gentlemen's 
agreement was that if somebody was going there, and if GAO was 
communicating, that they would send one to each. It wasn't one 
central point. And I am just checking with my staff now. We 
don't have to be there, but if staff is going to be there--and 
I directed our staff if we are doing something with GAO, you 
invite the Democrats in there, because I think that is the most 
open. Just like when we brought both attorneys in.
    I think in the long run the way we look at this with 
respect to this House, that is, I believe, the best manner in 
which to proceed, because right off the bat when you say the 
12th, and we had a meeting on the 13th, and this changed, I am 
sitting here, well, where were we? Staff could have easily been 
involved in that, and we can make this pretty unanimous.
    Ms. Lofgren. Reclaiming my time, as you know, I am chairing 
the Immigration Subcommittee, and we held 15 hearings in 2 
months. But I will just give you my opinion that if we adopt 
this plan, and I hope that we do today, and I don't know why we 
shouldn't, that it is completely unworkable that every time an 
e-mail or a phone call is made, that you have to convene the 
bipartisan staff. It is just absurd. The Minority, when you 
were the Majority, would never have done that. We will never 
get this done if we have to tie ourselves in knots in that way. 
And I would think that would be a dumb way to do it. That is 
just my opinion. And certainly I know that Chairman Thomas 
would never have agreed to that.
    The Chairman is not me, and it is not you, and we have to 
have some trust that day-to-day routine stuff and oversight of 
this is going to be done in a proper way.
    Mr. Gonzalez. The Chair recognizes himself.
    We haven't had a meeting, we haven't had a briefing, we 
haven't had materials exchanged that the Minority has not been 
privy to. There was an inquiry about a date so that when we had 
this meeting we could have a discussion about our August recess 
and whether it would be possible to expedite a target date. And 
in a minute I think we will have some exchange here about 
moving the date that originally was discussed, even at our 
briefing of--I guess that was June 7. But I can assure you, and 
I think the way that we have conducted business has been open 
and transparent and has fully engaged you.
    My problem, I think, with some of the things that Mr. 
McCarthy represents now would mean that if staff simply places 
a call to GAO to inquire about the status of some inquiry you 
may have had about a phone number, well, that means we have to 
coordinate that with Minority staff to be in on the phone call. 
What if GAO calls simply inquiring about some general 
information; I don't know, I will come up with something 
regarding an attorney's fax number, or is this junior partner 
the one they are supposed to contact or whatever? We would have 
to tell them to call back at a time certain. We would have to 
contact Minority staff to have someone there at that time. It 
just would not work.
    So I think for some of what I call business as usual items, 
we are going to proceed, but I can guarantee you that anything 
of significance, a meeting, a briefing, reports that we may 
get, written inquiries that we may get, those will be made 
readily available to you. I don't believe that Minority staff 
has not had the full cooperation of Majority staff. I assume 
that, because I know we have been receiving reports of ongoing 
relationships regarding every aspect of this particular task 
force and its goal and the challenges.
    Mr. McCarthy. Mr. Chairman, if I can just clarify. I am not 
asking for a phone call to GAO. I was requesting based upon 
what you said. If I misunderstood what you said, you said you 
got this June 12, and we had a meeting on the 13th. That is 
what struck my attention, based upon our conversations prior.
    I come from this perspective of protecting the institution 
of this House. And, Mr. Chairman you will know in the manner in 
which I have carried this out, I have never brought an 
amendment to this body that I haven't talked to you personally 
about. I make sure, regardless of whether the Democrats provide 
amendments to us, that I get them to you if I have them. And 
that is the manner I just wish to carry it out.
    The only thing I was talking about is if we are conducting 
a meeting, that we do have both sides. No hidden agenda. And I 
think the greater transparency that we have, the greater 
ability at the end of the decision, whatever is decided upon, 
you have the support of the unanimous. That is my goal.
    I understand the clarification of a question. I understand 
all that. It is just at the end of the meeting last week, we 
allowed staff, do you have any questions? Nobody had any 
questions. And maybe the terminology was used wrong when you 
said ``a meeting.'' That is what would concern me. And I think 
you would think so, too. If you set up a meeting, you would be, 
hey, maybe our staff can't make it, but the invitation would be 
open. That is what I am saying.
    Mr. Gonzalez. I guess by way of clarification, and maybe it 
was just my mischaracterization, but I will tell you right now 
that Majority, members of the Majority, will have meetings with 
Majority staff, and we are not going to invite you.
    Mr. McCarthy. Only if you have good food I want to be 
invited.
    Mr. Gonzalez. And I suspect that you have meetings with 
Minority staff, and you will discuss motions, and you will 
discuss issues and such as you prepare for hearings. I do not 
expect that you are going to call us to participate. That is 
just the nature of that beast.
    I don't want to get so far afield and start coming up with 
all sorts of scenarios. All I can tell you is I guarantee you, 
and I know that I speak for Congresswoman Lofgren and for 
staff, whatever we receive you are going to get, whatever 
inquiries are made you are going to be copied.
    In a minute we are going into some of the specific 
processes and such, but I do want to move along, and we can 
even still have a further discussion as we consider some of the 
motions.
    Mr. Lungren, did you have something?
    Mr. Lungren. Before we get to the motion, just a concern I 
have, and that is we are putting a lot in the bailiwick of GAO. 
And they have come up with a work plan and given us an idea how 
much it is going to spend. We want to get this done as quickly 
as possible. I think we all do. Perhaps through the motions and 
the discussions and answers they give us we can make sure that 
what we require of them is not impossible for them to do, 
because I think it would be wrong--well, it would be very bad 
for us to put something on them and then us get an incomplete 
product from them that either leads us in the wrong direction, 
or then we fail to get any assistance on it.
    The only thing I hope we would keep in mind as we make this 
motion, and some of us want to get this done as quickly as 
possible, we get a response from them as to whether it can be 
done in whatever time period we give them.
    Ms. Lofgren. Will the gentleman yield on that point?
    Mr. Lungren. Sure.
    Ms. Lofgren. You look at the motion. There is the motion to 
improve engagement plan with a target date of July 27, 2007. 
And the target date is a word selected carefully because we 
want to get this done. On the other hand, we want them to do a 
good job.
    Mr. Lungren. Absolutely.
    Ms. Lofgren. We are not going to tell them how to do this. 
I mean, I have some questions about it, but they have to 
decide, not me. I want to be very clear about that. But if they 
can't meet that, then they can't meet the date. But we want 
them to know they got to try to meet the date.
    Mr. Lungren. And then I presume give us a time line at that 
point in time as to what they would need to do in the most 
expeditious fashion for our approval.
    Ms. Lofgren. That is why I am not going to put it in the 
motion, but I would expect that there would be some reporting 
in. I mean, we don't want to just say, I want to get a report, 
but I hope that our staffs will get some reports between now 
and July 27 on how they are doing.
    Mr. Lungren. To be shared by both sides contemporaneously.
    Ms. Lofgren. Correct.
    Mr. Lungren. Fine. Thank you very much, Mr. Chairman.
    Mr. Gonzalez. You bring up a good point, and all of us are 
going to be on the same page on this. GAO is not going to lend 
their name to any kind of report or findings unless they feel 
comfortable with it. If we did impede that, then, one, we 
probably are not going to get an opinion from you, or if we do 
get one, it is going to have so many caveats that they are 
almost worthless.
    We can't afford that. And they were chosen because, one, of 
course, impartiality, but also the ability to conduct this. And 
you bring a great deal of credence to our proceeding, and I 
think that is first and foremost. But I can assure you that 
only because we are asking that they be very, very focused.
    The other thing that I would just venture to guess is if I 
was GAO, and I was presenting this plan for us, I would be as 
expansive as possible. And in the process of the investigation, 
you may find out that you can jettison some things. And then 
also you may find out you need some additional information and 
such.
    We also contemplate, and I believe GAO, and we can ask them 
in a minute, one of the representatives, will provide us status 
reports and such along the way. So I think we are pretty well 
covered on that.
    Ms. Lofgren, do you have a motion at this time?
    Ms. Lofgren. I would be prepared to offer the motion to 
approve the engagement plan, the GAO engagement plan, with a 
target date of July 27, 2007.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. There are two other motions. I don't know 
whether there is objections. We can do them en bloc or en banc, 
or if there are objections to any of them, we can do them 
separately.
    Mr. McCarthy. I got a couple of motions as well. I don't 
know if you want to take it in order. The one I am talking 
about deals with the very first word of it.
    Ms. Lofgren. ``I move the approval of''?
    Mr. McCarthy. No. It starts with the high-level objective 
of their plan.
    Ms. Lofgren. Oh, okay.
    Mr. McCarthy. If you read the first sentence, and I'm 
sorry, Mr. Chairman----
    Ms. Lofgren. I will put the motion on the table. You can 
offer--how procedurally do we want to do this, Mr. Chairman? 
Shall I suspend?
    Mr. Gonzalez. I think since you want to adopt the plan as 
written with a target date of the 27th, I believe that what Mr. 
McCarthy wants to do is actually change the first paragraph of 
the engagement plan. So I think we will go ahead and consider 
how he would want to change the high-level objective; is that 
correct?
    Mr. McCarthy. For everyone, at the very beginning it says, 
``High-level objective: To what extent could the voting 
machines have contributed to the large undervote?'' I believe a 
greater clarification of what this--and it comes from our 
meeting that we had, because we kind of talked about that. I 
would make a motion to change that and say, ``High-level 
objective: Did voting machine malfunction contribute to the 
large undervote?'' because to me, that is really what we are 
asking you to do from this body. To me it is just a greater 
clarification here.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Mr. Chairman.
    Mr. Gonzalez. Ms. Lofgren.
    Ms. Lofgren. I just received this, but I am not going to 
support the motion, and I am not going to support any changes 
to the scope of work, and I will tell you why. I have 
questions, I will be honest, as I mentioned in my opening 
remarks, about some of these statements. For example, what 
different ballot styles were used in Sarasota County? I don't 
know why that is pertinent, honestly. But if GAO thinks that 
they need to look at that in order to answer the questions to 
number 4, I am not going to taint their process.
    We have asked them to come in as an independent agency with 
technical expertise to provide us information, and I think 
having voted to do that, we have to respect their independence 
and the scope of work that they have given to us.
    Now, I think if you want to ask--if you want to refer your 
question to them for their consideration, fine, but I don't 
think it is proper to really, given the relationship we have 
established here with the GAO, to start changing the scope of 
work. We should ask them to review the issues we have raised. 
If, in their professional judgment--and we obviously have 
brains in our heads--that they concur that this would be a 
refinement that they would be comfortable with, then fine, they 
could make that change. But I don't think we should politicize 
this in any way, which is why I am not going to make any 
amendments, even though I have questions about some of the 
work.
    And I would yield to the gentleman.
    Mr. Gonzalez. Mr. McCarthy.
    Mr. McCarthy. Ms. Lofgren, this does not change the scope 
at all. I would first like to ask GAO. And did I understand you 
correctly, you are not making any amendments?
    Ms. Lofgren. To the scope of work, even though I have 
questions, because I don't think it is proper.
    Mr. McCarthy. This is not to the scope of the work. If the 
GAO there has it, if I could get their opinion, because the way 
I looked at it, and we talked about this in the meeting prior, 
and I think you actually brought it back up, because that is 
what drove me to this, if you saw where it said, ``did voting 
machines' malfunction contribute to the large undervote'', to 
me that was the question that we asked you. Does that change 
the scope, in your opinion, in any shape or any form?
    Mr. Barkakati. We considered when you vote to what extent 
voting machines contributed. I mean, even what they consider 
the normal operation of the voting machine might have been a 
malfunction. We were trying to be very neutral, and we did not 
want to say the voting machine malfunctioned.The way the voting 
machine was, did it somehow contribute to the undervote? I thought that 
would be a very good way to characterize it as opposed to trying to 
say--I mean, you are almost prejudging and saying the machine 
malfunctioned, and we did not want to do that. That is what our logic 
was in writing it.
    I agree that we can phrase it in many different ways, and 
in the end what you are looking for is, I think, similar to 
what everyone else was thinking, you know, if it didn't work 
properly, kind of like that. But as you know, some product or 
something can be sold and designed, and no one is saying it is 
malfunctioning, but maybe it is normal function with some bugs 
and problems in it. We were kind of thinking of it that way so 
we didn't have to put the word ``malfunction'' there. That is 
the how we considered it.
    Mr. McCarthy. If I can just go further just to clarify, 
would this change your scope if this was changed to this?
    Mr. Barkakati. I don't think it probably will change the 
scope of what they are doing, but there may be a point, though, 
in terms of--I mean, in the end I think, you know, what is 
written in the first sentence and what you suggest probably 
gives the same result, so I don't know if it is worthwhile. But 
I think, as a quick judgment, it doesn't seem to change the 
scope, but I guess again we probably have to look at it a 
little more.
    Mr. McCarthy. If the GAO feels it is answering the same 
question I will be content to keep what they wrote then. I just 
wanted to clarify from our conversation prior when we were all 
in the room, I thought you came back. I just want to look from 
the aspect of really what this body was looking at, just 
clarifying.
    Mr. Gonzalez. Are you withdrawing?
    Mr. McCarthy. I will withdraw. The only thing I want on the 
record, I am just looking really to see did the machines record 
the votes accurately? And I thought this clarified that 
further, because I didn't want someone to come back at the end 
of the day and use the wording here to say we weren't answering 
the question this body wanted to answer.
    Mr. Barkakati. No, I think exactly like you said. We will 
do basically that. The machines did contribute somehow to the 
undervote by not recording someone who cast a vote, things like 
that. And so in that sense I think we don't change anything.
    Mr. McCarthy. So at the end of the day, you are going to 
answer the question did the machines vote accurately?
    Mr. Barkakati. Yes.
    Mr. McCarthy. I am fine with it then.
    Mr. Gonzalez. The motion is withdrawn, Mr. McCarthy.
    And Ms. Lofgren.
    Ms. Lofgren. Does Mr. McCarthy have other amendments to 
offer to the scope?
    I am prepared to move approval of the GAO engagement plan 
with a target date of July 27, 2007. And if necessary I would 
also move that the Chairman transmit the GAO engagement plan to 
the parties if they contest, and upon receipt the parties will 
have 7 days to submit comments to the Committee on House 
Administration, which will transmit such comments forthwith to 
the GAO. And I move that The Chairman notify individuals, 
offices and entities identified in the GAO engagement plan that 
the task force seeks their full, prompt and voluntary 
cooperation with the GAO. That would be my motion, Mr. 
Chairman.
    Mr. Gonzalez. All right. We have a motion.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy. I just have clarification. Your motion was 
going back to the original one you said to approve this and add 
in, so you would be amending to July 27.
    Ms. Lofgren. A target date of July 27. For clarification 
purposes, the target date is--it is just that, it is a target. 
But if GAO is unable to meet that target, they are going to 
tell us that. They are going to take the time they need, but I 
want them to understand the sense of urgency that we have and 
that that would be a target for them.
    Mr. McCarthy. I guess that doesn't change the scope, 
because you wouldn't offer those amendments.
    Let me ask GAO first. You came back to us in that meeting, 
and we expressed to you we want this as soon as possible, but 
we want it done right. Someone came back, we are going to shoot 
as soon as possible, you are looking maybe September, and now 1 
week later someone picked the date of July 27. How does that 
work for you?
    Mr. Barkakati. I think because we just started out and we 
estimated some dates, we still think it will take longer, but 
if the target date is July 27, obviously we can try harder to 
do as much as we can to critical items . . . and by that time 
we can be at a stage to report back what we have found so far. 
The only problem is that we cannot promise that it is going to 
be complete and done. But just as you had stated earlier, some 
of the places we may find out that things can go faster, and 
this happens all the time. Not that things really go faster, 
but I am just saying in this case, knowing the urgency, if 
things go faster, we can provide more perhaps.
    So it doesn't affect how we are going to work, but if we 
are lucky with everything, and everything falls into place, 
everybody cooperates, and we get information, perhaps things 
will go fast enough that there is some kind of useful 
information by July 27. That is what I would be able to offer 
at this point, I think.
    Mr. McCarthy. As long as you make your best effort, I would 
be all right from that perspective. I think we expressed to you 
we want thorough and as quickly, but thorough was our most 
important.
    Ms. Lofgren. If the gentleman would yield. I don't think 
there is a disagreement here. We do not want GAO to compromise 
their efforts in any way. On the other hand, we have an August 
recess, and so we have got a target date, and I think we are 
all pretty clear with that here.
    Mr. McCarthy. Is that how you came up with the date, just 
picking from the recess part?
    Ms. Lofgren. Yes. If we can resolve this before we are all 
gone for a month, that would be great. I mean, that is a 
target. If we can't, then we will find out.
    Mr. Lungren. If the gentleman would yield.
    Mr. Gonzalez. In riding a horse you would call this 
spurring the horse.
    Ms. Lofgren. Perhaps. You are from that part of California. 
Of course, so is Mr. McCarthy.
    Mr. McCarthy. I just have one other question of GAO.
    Mr. Gonzalez. Go ahead.
    Mr. McCarthy. I know we were talking before, does the 
ballot design--you are going to be studying that as well, 
correct? Does that go into this review?
    Mr. Barkakati. We are going to study the machines as they 
were loaded with those ballots that were used in that election, 
in the general election. So of course, in that sense, the 
machine includes the ballot design. And if we were to propose 
further testing, we can also consider it more if there is a 
need for usability testing, things like that. But obviously at 
this point we are not doing it. But I suspect those can be 
things we will consider in developing further tests that may or 
may not be needed.
    What I am trying to say is the ballot, because it is part 
of the machine at this point as it is configured, it is 
included, the ballot design is part of the machine, but we have 
not--I mean, we talk about ballot designs and all because we 
want to consider all configurations of the machines and then to 
find out if there is any differences in the undervote pattern. 
That is like another variable in undervoting, maybe change of 
the ballot design. We just have to look at that.
    Mr. McCarthy. Have you changed the different phases in 
which you said you were going to do this from the meeting last 
week?
    Mr. Barkakati. No. Actually what we did was we just 
consolidated the items to basically include the four subjects; 
we enhanced it to include the item, that we are going to also 
recommend or determine what further tests, if any, are needed. 
Earlier that was like left over as a little item in our written 
plan. And so we tried to streamline it to look in a very 
straightforward manner and take all the machines and things 
that were available and used, look at, you know, what kind of 
testing was done.
    I guess the scope of the undervote, because that is the 
crux of the problem, you might say, well, it is already 
reported, why do you need to do it again? But our process calls 
for confirming the data that we are using. And so it is like a 
parallel activity quickly done by statisticians to confirm that 
it is true.
    And then the last two, third and fourth items, basically we 
made them into tests that are done prior to the machines being 
used and a test that is done after the problems are reported. 
So, of course, the tests done prior might have some clues to 
it. Or if we were able to talk to the manufacturer, they may 
have found things that they could help us understand; you know, 
how do they report problems to Sarasota County. Did they report 
back any problems in the past and that sort of thing.
    So we are trying to capitalize on all the knowledge that is 
out there to be able to decide what further testing might be 
needed. That is basically the logic behind it.
    Mr. Gonzalez. Mr. McCarthy.
    Mr. McCarthy. The only thing, I have a question to you, Mr. 
Chairman.
    Mr. Gonzalez. Sure.
    Mr. McCarthy. We talked about in that last meeting that we 
had that wasn't public, the staff getting together and creating 
a framework, making sure the flow of communication is fair. I 
know I gave you a motion earlier today or an amendment. I 
didn't get to hear back from you what you thought of that. But 
if there is something that you have in your mind from that 
standpoint, I don't know that it has to be into this agreement, 
but I just think we should have some public agreement from that 
standpoint. I just think that gets greater transparency in how 
we move forward.
    Mr. Gonzalez. This first part of the motion is the 
engagement plan only with a target date of July 27. The other 
parts may touch on what you are discussing here, and that is 
the exchange of the information, one, with the contestant and 
contestee's representatives and how they communicate and how 
they provide information. And then, of course, I would think 
that internally staff should be able to coordinate anything, as 
far as anything that is being filed by anyone with the task 
force or the committee, obviously is shared immediately with 
the Minority. That is just a matter of course, I can guarantee 
you that.
    Anything above that, I mean, there are certain things that 
decisions would be made that would be--like I said, if there is 
a phone call or an e-mail asking for some information on an 
election official, I don't want to have to convene a staff 
meeting just for someone on our staff to give them that 
information. I think to a certain extent you do have to trust, 
I guess, my integrity and my judgment. There is nothing of any 
significance that will be kept from you, I assure you of that. 
There is no advantage to be gained. We have a third party that 
is going to conduct this; we have the best third party 
conceivably out there for us. There is just no advantage to be 
gained. Parties are going to be providing information. There 
will be no reason not to be submitting and sharing it because 
we have to do that immediately. But eventually you would know 
about something. There is just no way we would want to keep 
anything.
    Ms. Lofgren.
    Ms. Lofgren. I don't want to make it part of the motion 
because I think the staff needs to work this out with GAO, but 
as I said earlier, I expect--I don't want to do the briefings--
but that our staffs will have reports, periodic reports. And I 
don't know what the appropriate--you know, whether it is weekly 
or every 10 days. They need to work that out. But that should 
be on a bipartisan basis. And I don't know whether that will 
end up being substantive or not, but certainly it should be 
bipartisan. And that is included in the discussion.
    Mr. McCarthy. I am just looking long term to make sure that 
we get to the end that we just have very transparent. And I 
know you and I talked about the only standpoint was it was in a 
private meeting. I would just like publicly so they know what 
you had said. And I agree, phone calls, all that, no. The staff 
can work that out. Coming to the framework, if they are getting 
updated, you are just going to both, that is all.
    Mr. Gonzalez. Well, this first part, the approval of the 
GAO engagement plan with a target date of July 27, 2007, I 
think we have completed the discussion. The second part was to 
transmit the engagement plan to the parties to the contest, 
and, upon receipt, that the parties would have 7 days to submit 
comments to the Committee on House Administration, and we will 
transmit those comments immediately to the GAO.
    The only comment I have would be, of course, the parties 
are represented by attorneys, that they be very concise and to 
the point as to their remarks and information they feel they 
need to provide to GAO within the framework of their engagement 
plan. The whole crux of the contestants' objection or contest 
here is electronic voting machine malfunction. So I am just 
telling the attorneys be very specific. I don't want GAO to 
have to go through a bunch of material that really is not going 
to assist them or may relate to some other side issue. It is 
all about the machines. At least that is my own impression of 
where we are today.
    Ms. Lofgren.
    Ms. Lofgren. I would just concur in the Chairman's 
comments. And I actually at one point suggested that the 
appellate courts have limits on how many pages. I don't think 
we should do that. But if the parties submit extraneous stuff, 
GAO is just going to disregard it, and they are free to 
disregard it, and so it ought to be to the point. And it is not 
going to be welcome by anybody if there is a massive paper that 
is extraneous, and I would caution the counsel not to engage in 
that.
    Mr. Lungren. That does bring up the question why lawyers' 
submissions to courts are called briefs. As I understand the 
Chairman, the manner in which the lawyers are to proceed is 
through the committee rather than directly through GAO, which 
is somewhat different than what we discussed before. I commend 
you for that. I think that makes a good deal of sense. But I 
wanted to make sure that that was what you were saying, that 
the lawyers, rather than having direct interchange individually 
or collectively with GAO, are supposed to go through the 
committee, and those communications will be directed then to 
GAO from the committee; is that correct?
    Ms. Lofgren. We will pass them on. I think it insulates 
GAO.
    Mr. Lungren. I agree with you very much, and I thank you 
for that change in the thought process.
    Mr. Gonzalez. Mr. Lungren, you bring up a good point, 
because in our briefing with GAO there were some discussions 
and such. And, of course, as you reflect on it and how it works 
out and you play it out, then you start thinking in terms of 
GAO's contact with interested parties, to be very honest with 
you, it needs to be done because they have to have the input. 
We surely understand that, we respect it. But it doesn't have 
to be any more than that. And I think GAO would appreciate that 
we proceed in that, and I appreciate your support and your 
observations.
    The next item that is part of Ms. Lofgren's motion is that 
I would notify individuals, offices, entities identified in the 
GAO engagement plan that the task force seeks the full, prompt 
and voluntary cooperation with the GAO. And the reason that I 
feel that we need to do that formally is to place the world on 
notice that we don't have that much time, we don't have all the 
resources in the world, don't give GAO a hard time, produce the 
information, it has been produced before for others, and there 
may be other requests.
    GAO needs to advise us immediately if there is any 
reluctance on any party, because we have to move quickly. 
Congress has the authority to obtain information, and we will. 
And one thing that we have assured GAO from the beginning is to 
recognize the demands on resources and that you have our 
support regarding that; and secondly, the authority, because 
you don't have the authority to get much of this information, 
but you do through the power of this committee and the 
authority of this committee, and that is what this particular 
part of Ms. Lofgren's motion addresses.
    Mr. McCarthy. I would like to second the motion, and I 
think this would be a unanimous vote.
    Ms. Lofgren. Good.
    Mr. Gonzalez. One last thing, and Mr. Lungren understands 
this, and so do the attorneys. There was some question 
regarding trade secrets and such which was a basis for the 
appeal in Florida. And we have been very specific from the 
beginning that we would have confidentiality agreements and 
such to protect any trade secrets, any proprietary interest 
that can be legally protected. We are going to honor all of 
that. GAO has their counsel, we have our counsel. Believe me, 
working together we can address it.
    So any other comments on Ms. Lofgren's motion?
    Ms. Lofgren. On that point, if I may, Mr. Chairman, that is 
the case. But also, the Secretary of State for Ohio is here 
today just visiting, and I had a chance to meet her, not for 
any particular purpose, just with our freshmen. And she 
mentioned that by contract they have all the source code that 
is the dispute here in Ohio. It is the same source code. So 
knowing that actually makes me even less impressed if somebody 
doesn't want to fully cooperate since other States have the 
exact same information by contract and are sharing it with 
third parties pursuant to contract.
    I just wanted to share that. We all want this to be 
resolved promptly. Delay serves no one's interest. And 
certainly we will respect the rights of everyone as we proceed. 
And I thank the Chairman again for his leadership and Mr. 
McCarthy for his excellent comments.
    Mr. Gonzalez. Any further comments on the motion?
    Mr. Lungren. Mr. Chairman, if I could second the motion, I 
would.
    Mr. Gonzalez. I was almost going to recognize you for that. 
We will go ahead. At this time all in favor, aye.
    Mr. McCarthy. Are we doing en bloc all of them?
    Mr. Gonzalez. All three in one motion.
    All in favor, aye.
    All opposed?
    Obviously it is unanimous.
    Any further business for the task force?
    Mr. McCarthy. I wish the GAO the best of luck.
    Mr. Gonzalez. Thank you, everyone, and we stand adjourned.
    [Whereupon, at 3:55 p.m., the task force was adjourned.]

                                 <all>

</pre></body></html>
